No.

IN THE SUPREME COURT OF THE UNITED STATES

In re LEONARD ENGLISH, JR. petitioner

PROOF OF SERVICE

I, LEONARD ENGLISH, JR., do swear or declare that on this date,
February 26, 2021, as required by Supreme Court Rule 29,1 have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF MANDAMUS on each
party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
Washington, D. C. 20543
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D. C. 20530-0001
Page 33 of 34

Office of the Clerk
United States Court of Appeals for the Tenth Circuit
Byron White United States Courthouse
1823 Stout Street
Denver, CO 80257
Via Email
Attorney for the Small Business Administration
Susan Prose
Assistant United States Attorney
1801 California Street, Suite 1600
Denver, CO 80202
(303) 454-0100
susan. prose@usdoi. gov

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 26, 2021

Leonard English, Jr.

Page 34 of 34

